TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Fiscal Year 2012 Statutory Review
                             of Compliance With the
                           Freedom of Information Act



                                         August 22, 2012

                              Reference Number: 2012-30-098




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.




 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                   HIGHLIGHTS


FISCAL YEAR 2012 STATUTORY                            that the IRS has remained relatively consistent
REVIEW OF COMPLIANCE WITH THE                         in providing responses to requestors within the
FREEDOM OF INFORMATION ACT                            statutory time periods. TIGTA found only one
                                                      (1.7 percent) of the 60 FOIA/Privacy Act cases
                                                      sampled where the IRS did not respond within
Highlights                                            the statutory time period.
                                                      WHAT TIGTA RECOMMENDED
Final Report issued on August 22, 2012
                                                      TIGTA did not make any recommendations in
Highlights of Reference Number: 2012-30-098           this report because the number of errors was
to the Internal Revenue Service Director,             relatively small and the recommendations made
Privacy, Governmental Liaison and Disclosure.         in previous audit reports are still valid for the
                                                      issues reported. Although TIGTA made no
IMPACT ON TAXPAYERS                                   recommendations in this report, IRS officials
                                                      were provided with an opportunity to review the
The IRS must ensure that the provisions of the
                                                      draft report. IRS management did not provide
Freedom of Information Act (FOIA), the Privacy
                                                      any report comments.
Act of 1974 (Privacy Act), and Internal Revenue
Code (I.R.C.) Section (§) 6103 are followed,
particularly because errors can violate taxpayer
rights and result in improper disclosures of tax
information.
WHY TIGTA DID THE AUDIT
TIGTA is required to conduct periodic audits to
determine if the IRS properly denied taxpayers’
written requests for tax account information.
TIGTA is also required to include the results in
one of its Semiannual Reports to Congress.
This is TIGTA’s thirteenth review of denials of
FOIA, Privacy Act, and I.R.C. § 6103 requests.
The overall objective of this review was to
determine whether the IRS improperly withheld
information requested by taxpayers in writing
based on FOIA exemption (b)(3), in conjunction
with I.R.C. § 6103, and/or FOIA exemption (b)(7)
or by replying that responsive records were not
available.
WHAT TIGTA FOUND
TIGTA reviewed a statistically valid sample of
60 FOIA/Privacy Act cases and found two cases
(3.3 percent) in which taxpayer rights may have
been violated because the IRS improperly
withheld information from requestors. TIGTA
also found that the IRS properly adhered to the
legal requirements under I.R.C. § 6103 in the
sample of 60 requests reviewed.
In addition, the results of TIGTA’s last three
audits in Fiscal Years 2010 through 2012 found
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              August 22, 2012


 MEMORANDUM FOR DIRECTOR, PRIVACY, GOVERNMENTAL LIASION AND
                DISCLOSURE


 FROM:                          Michael E. McKenney
                                Acting Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Fiscal Year 2012 Statutory Review of
                                Compliance With the Freedom of Information Act (Audit #201230006)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) improperly withheld information requested by taxpayers in writing based on the Freedom
 of Information Act (FOIA)1 exemption (b)(3), in conjunction with Internal Revenue Code
 (I.R.C.) Section (§) 6103,2 and/or FOIA exemption (b)(7) or by replying that responsive records
 were not available. This audit is statutorily required each fiscal year. This review is part of our
 Fiscal Year 2012 Annual Audit Plan and addresses the major management challenge of Taxpayer
 Protection and Rights.
 We did not make any recommendations in this report because the number of errors was relatively
 small and the recommendations made in our previous audit reports are still valid for the issues
 reported. Although we made no recommendations in this report, we did provide IRS officials
 with an opportunity to review the draft report. IRS management did not provide us with any
 report comments.
 Copies of this report are also being sent to the IRS managers affected by the report.
 Please contact me at (202) 622-6510 if you have questions or Frank Dunleavy, Acting
 Assistant Inspector General for Audit (Compliance and Enforcement Operations), at
 (213) 894-4470 (Ext. 128).




 1
     5 U.S.C.A. § 552 (2010).
 2
     I.R.C. § 6103 (2009).
                                      Fiscal Year 2012 Statutory Review of
                                  Compliance With the Freedom of Information Act




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Needs to Continue Its Efforts
          to Reduce Its Freedom of Information Act Backlog ..................................... Page 4
          Managerial Controls Need to Ensure That Disclosure Employees
          Properly Respond to Freedom of Information Act, Privacy Act,
          and Internal Revenue Code Section 6103 Requests for Information ............ Page 5
          Freedom of Information Act and Privacy Act Requests Were
          Responded to Timely by the Internal Revenue Service ................................ Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 9
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Outcome Measures............................................................... Page 14
          Appendix V – Prior Treasury Inspector General for Tax
          Administration Freedom of Information Act Reports .................................. Page 16
             Fiscal Year 2012 Statutory Review of
         Compliance With the Freedom of Information Act




                 Abbreviations

AFOIA      Automated Freedom of Information Act
DQMS       Disclosure Quality Measurement System
E-DIMS     Electronic Disclosure Information Management System
FOIA       Freedom of Information Act
FY         Fiscal Year
I.R.C.     Internal Revenue Code
IRS        Internal Revenue Service
TIGTA      Treasury Inspector General for Tax Administration
U.S.       United States
                                 Fiscal Year 2012 Statutory Review of
                             Compliance With the Freedom of Information Act




                                            Background

Statutory requirements
The Internal Revenue Service (IRS) Restructuring and Reform Act of 19981 requires the
Treasury Inspector General for Tax Administration (TIGTA) to:
        . . . conduct periodic audits of a statistically valid sample of the total
        number of determinations made by the Internal Revenue Service to deny
        written requests to disclose information to taxpayers on the basis of
        section 61032 of this title3 or section 552(b)(7) of title 5, United States
        Code.4
The three primary laws that govern the types of requests for information reviewed in this audit
are:
The Freedom of Information Act (FOIA) requires Federal
Government agencies to make records available to the public
upon request, unless specifically exempted. Information that                 The FOIA requires agencies
                                                                               to make records of the
is “specifically exempted from disclosure by statute” is one                    Federal Government
of the exemptions. Internal Revenue Code (I.R.C.)                              available to the public
Section (§) 6103 is an example of such a statute; it protects                   upon request, unless
the confidentiality of tax returns and return information.                     specifically exempted.
Records or information compiled for law enforcement
purposes are also exempt from disclosure under the FOIA.
The Privacy Act of 1974 (Privacy Act)5 prohibits Federal Government agencies from relying
on any exemption in the Privacy Act to withhold records that are otherwise available to an
individual under the FOIA.
I.R.C. § 6103, while protecting the confidentiality of taxpayers’ returns and return information,
does allow the taxpayer, or a person designated by the taxpayer, to request and receive the
taxpayer’s specific documents and information.


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.). The requirements for
this audit are in § 1102 (d)(3)(A) of the statute.
2
  I.R.C. § 6103 (2009).
3
  26 U.S.C. (2009).
4
  5 U.S.C.A. § 552 (2010).
5
  5 U.S.C. § 552a (2010).
                                                                                                           Page 1
                                  Fiscal Year 2012 Statutory Review of
                              Compliance With the Freedom of Information Act



IRS processing and reporting of FOIA cases
Effective June 2011, the Office of the Deputy Commissioner for Operations Support (through its
Office of Privacy, Governmental Liaison and Disclosure) became responsible for ensuring the
IRS’s timely compliance with the FOIA, the Privacy Act, and I.R.C. § 6103. The Headquarters
Disclosure Office within the Office of Privacy, Governmental Liaison and Disclosure, sets IRS
policy and issues instructions, guidelines, and procedures to the various IRS functions to ensure
compliance with the disclosure statutes.
The Headquarters Disclosure Office processes FOIA/Privacy Act requests and I.R.C. § 6103
requests received by the IRS. In the United States (U.S.) Department of the Treasury FOIA
Annual Report to the Attorney General for Fiscal Year (FY) 2011, the IRS reported that a total of
12,028 FOIA/Privacy Act cases were processed. This is consistent with the 12,300 FOIA/
Privacy Act cases processed during FY 2010.
The U.S. Department of the Treasury FOIA Annual Report for FY 2011 also reported that the
IRS denied or partially denied information to requestors in 2,432 (20.2 percent) of the
12,028 FOIA/Privacy Act cases processed in FY 2011. It advised requestors that there were no
records responsive to requests in 1,026 (8.5 percent) of the 12,028 cases. The remaining cases
were either granted in full or closed for miscellaneous reasons, such as the request was improper
or had been previously granted.

Audit limitations and standards
Individual IRS Disclosure offices or other IRS offices having custody of the records processed
written requests for information made under I.R.C. § 6103. While the IRS is not required to
track all requests made under I.R.C. § 6103, it has elected to do so for requests received by its
Headquarters Disclosure Office. The Headquarters Disclosure Office used the Automated
Freedom of Information Act (AFOIA) System6 and the Electronic-Disclosure Information
Management System (E-DIMS)7 to track requests made under the FOIA/Privacy Act for
FY 2011. Requests made under I.R.C. § 6103 that were received and processed by IRS offices
other than the Headquarters Disclosure Office are not controlled on the AFOIA System or the
E-DIMS or otherwise inventoried. Consequently, the volume of these requests is not known. As
a result, we can statistically sample only the I.R.C. § 6103 requests processed directly by the IRS
Headquarters Disclosure Office and tracked on the AFOIA System and the E-DIMS.




6
  In February 2010, the IRS began implementing the AFOIA System, which will eventually replace the E-DIMS and
become the primary automated information system used by the Headquarters Disclosure Office.
7
  In FY 2011, the E-DIMS automated information system was still being used by the Headquarters Disclosure Office
staff for inventory tracking, work planning, statistical management reports, daily time tracking, etc., as they had not
yet completed the full transition to the AFOIA System.
                                                                                                               Page 2
                             Fiscal Year 2012 Statutory Review of
                         Compliance With the Freedom of Information Act



Beginning in February 2006, the responsibility for processing some requests for I.R.C. § 6103
tax compliance checks and transcripts was transferred from the Small Business/Self-Employed
Division Office of Disclosure to the Wage and Investment Division Return and Income
Verification Services Units. The transfer of responsibility for processing tax compliance checks
and transcripts to the Return and Income Verification Services Units continues to increase our
scope limitation for this and future years’ audits because the Wage and Investment Division does
not record the I.R.C § 6103 cases on the AFOIA System or the E-DIMS. We reviewed only
those requests processed by the Headquarters Disclosure Office that were denied during the
period October 1, 2010, through September 30, 2011.
This review was performed at the Headquarters Disclosure Office within the Office of Privacy,
Governmental Liaison and Disclosure, in Washington, D.C., during the period January through
June 2012. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                          Page 3
                             Fiscal Year 2012 Statutory Review of
                         Compliance With the Freedom of Information Act




                                Results of Review

Overall, the IRS needs to continue its efforts to reduce its FOIA inventory backlog and could
improve its service to persons who requested information under the FOIA/Privacy Act based on
the sample of cases we reviewed. The IRS improperly withheld information from requestors in
two (3.3 percent) and did not respond timely in one (1.7 percent) of the 60 FOIA/Privacy Act
cases reviewed. However, the IRS adhered to legal requirements under I.R.C. § 6103 in the
statistically valid random sample of 60 cases we reviewed.

The Internal Revenue Service Needs to Continue Its Efforts to Reduce
Its Freedom of Information Act Backlog
Ultimately, the IRS relies on its disclosure personnel to ensure requests under the FOIA are
handled timely and in accordance with laws and regulations. At the top of the agency, a broad
policy statement and the Internal Revenue Manual provide guidance nationwide to disclosure
personnel. The policy statement, among other things, affirms the IRS’s commitment to full
compliance with the FOIA and administering it in a manner consistent with “the fundamental values
held by our society, including public accountability, safeguarding national security, enhancing the
effectiveness of law enforcement agencies and the decision-making processes, protecting sensitive
business information, and protecting personal privacy.”
Besides providing assurances that FOIA requests are handled timely and in accordance with laws
and regulations, the IRS needs to continue in its efforts in carrying out its responsibilities to
reduce inventory backlog under the Government-wide “Improving Agency Disclosure of
Information” initiative. The IRS has taken steps to manage its FOIA backlog. For example, the
Headquarters Disclosure Office has weekly overage reports and monthly inventory monitoring
reports, both of which include FOIA/Privacy Act and I.R.C. § 6103 inventory and backlog
information in order to manage their case inventories.
As shown in Figure 1, statistics provided by the Headquarters Disclosure Office show that the
IRS has continued to reduce the backlog of FOIA requests in FYs 2007 through 2010. In
FY 2011, the IRS was unable to fill 32 case processing vacancies in the Headquarters Disclosure
Office, or approximately 20 percent of its authorized staff. In addition, training and
implementation issues related to the AFOIA System further affected the IRS’s ability to reduce
its backlog. As a result, there was a 23.7 percent increase in the number of cases that were
backlogged at the end of FY 2011 (146 cases) compared to the number backlogged at the end of
FY 2010 (118 cases). Reducing the number of backlogged cases is particularly important
because it addresses the primary reason response time periods are not being met under the FOIA.


                                                                                            Page 4
                                 Fiscal Year 2012 Statutory Review of
                             Compliance With the Freedom of Information Act



The IRS’s FY 2012 backlog goal8 is to reduce its September 30, 2011, backlog of 146 cases by
10 percent to 131 cases. As of May 21, 2012, there were 135 backlogged cases. This represents
a 7.5 percent decrease in backlogged cases since the beginning of FY 2012. The IRS expects to
meet its reduction in backlog goal this year. Figure 1 shows the inventory of backlogged FOIA
requests from FY 2007 through FY 2012, as of May 21, 2012.
                      Figure 1: Inventory of Backlogged FOIA Requests




    Source: Unaudited data provided by the IRS Headquarters Disclosure Office, U.S. Department of the
    Treasury Freedom of Information Act Annual Report to the Attorney General, Fiscal Year 2011, and
    TIGTA audit reports issued in FYs 2007–2012.9

Managerial Controls Need to Ensure That Disclosure Employees
Properly Respond to Freedom of Information Act, Privacy Act, and
Internal Revenue Code Section 6103 Requests for Information
The IRS was not consistent in its service to persons who requested information under the
FOIA/Privacy Act based on the statistically valid random sample of cases we reviewed.
Specifically, we found that disclosure personnel improperly withheld information on two
(3.3 percent) of the 60 FOIA/Privacy Act requests reviewed. When the sample results are

8
  The Government-wide backlog goal for the IRS is determined by the Department of Justice target of a 10 percent
reduction in the past fiscal year’s backlog.
9
  The fiscal years in all charts pertain to the year the TIGTA report was published.
                                                                                                          Page 5
                               Fiscal Year 2012 Statutory Review of
                           Compliance With the Freedom of Information Act



projected to our estimated population of 2,861 cases closed during the period October 1, 2010,
through September 30, 2011, the results indicate that approximately 95 FOIA/Privacy Act
requests may have been erroneously denied or partially denied information. The projection is
based on a 95 percent confidence level. We expect the number of requests that had information
improperly withheld to range from 12 to 330 cases. The IRS did, however, continue to properly
adhere to the legal requirements under I.R.C. § 6103 in all 60 requests reviewed. Figure 2 shows
the audit results for FYs 2007 through 2012.
   Figure 2: Improper FOIA/Privacy Act and I.R.C. § 6103 Request Withholdings




  Source: TIGTA audit reports issued in FYs 2007–2012. Percentages were rounded to the closest tenth.

As previously discussed, the IRS relies on its disclosure personnel to ensure that requests under
the FOIA are handled in accordance with laws and regulations. The Internal Revenue Manual
provides guidance to disclosure personnel nationwide. Throughout the Internal Revenue
Manual, personnel are instructed to properly document in case files all aspects of their work
during the receipt, control, research, response, and closing phases of requests. This
documentation is important because it provides the principal evidence that procedures were
followed, as well as the foundation for other control processes such as management reviews.




                                                                                                        Page 6
                                 Fiscal Year 2012 Statutory Review of
                             Compliance With the Freedom of Information Act



Prior to September 2008, the Office of Disclosure10 used a Balanced Measures Review Process
to identify and correct potential problems with responses to FOIA/Privacy Act requests. In
January 2008, the final Balanced Measures Review Team report was issued. The Balanced
Measures Review Team examined a sample of FOIA/Privacy Act cases twice a year to 1) assess
how well personnel were meeting the standards for accuracy, completeness, and timeliness;
2) communicate areas of concern to top management; 3) identify potential training needs; and
4) improve work processes.
During FY 2009, the Office of Disclosure implemented a Disclosure Quality Management
System (DQMS), which was designed to institutionalize a real-time national process for
monitoring the quality of all Office of Disclosure work. The DQMS process reviewed all types
of Office of Disclosure work throughout the year, whereas the former Disclosure Balanced
Measures Review Team reviewed only FOIA/Privacy Act cases biannually. Disclosure
managers, who are responsible for the quality of work done locally by the personnel they
manage, conducted these reviews using the DQMS. By reviewing ongoing work, managers
attempted to identify and correct potential problems before they had an adverse effect on
taxpayers.
According to IRS management, the DQMS was staffed by temporarily promoting Senior
Disclosure Specialists into the review positions on a rotational basis. During FYs 2010 and
2011, the implementation of the AFOIA System took a significant investment of staff time for
training and related administrative support. This resulted in sporadic operation of the DQMS
program, and an insufficient number of reviews to provide a valid analysis of statistical
information. The decision was made to temporarily discontinue the DQMS as a quality review
for casework. Though a managerial review of selected casework is still required, we do not
believe this is a sufficient substitute for the DQMS.

Freedom of Information Act and Privacy Act Requests Were
Responded to Timely by the Internal Revenue Service
The FOIA requires Federal Government agencies to respond within 20 business days of the
receipt of a request or, if the 20 days are not sufficient, to notify the requestor of the reason why
the request cannot or will not be filled. If they are unable to respond to a request within the time
limit, Federal Government agencies are required to immediately notify the requestor of this fact,
of the reasons why they are unable to respond, and of the requestor’s right to appeal.
The due date for a FOIA request is revised when the IRS sends a letter to the requestor
exercising its right for an automatic 10-day extension and/or requesting a voluntary extension in
excess of the initial statutory 20-day period for FOIA requests. The requestor must agree to the


10
  Prior to June 2011, the Office of Disclosure in the Small Business/Self-Employed Division was responsible for
processing FOIA/Privacy Act requests.
                                                                                                           Page 7
                               Fiscal Year 2012 Statutory Review of
                           Compliance With the Freedom of Information Act



voluntary extension, and the IRS must notify the requestor of its ability to respond by the end of
the extension period. A case is untimely when the IRS responds to the requestor after the due
date. For Privacy Act cases, the IRS must respond within 30 business days of the taxpayer’s
request.
Since FY 2000, the IRS has made significant improvement in the timeliness of responses to
FOIA/Privacy Act requests. Our audits, including this review, indicate that the percentages of
untimely responses ranged from zero percent to 43.5 percent. Figure 3 shows the percentages of
untimely cases we have reported since FY 2007.
           Figure 3: Comparison of Untimely FOIA/Privacy Act Responses




   Source: TIGTA audit reports issued in FYs 2007–2012. Percentages were rounded to the closest tenth.

The results of our last three audits (reports issued FYs 2010, 2011, and 2012) found that the IRS
has remained relatively consistent in providing responses to requestors within the statutory time
periods. During our review of the FY 2011 FOIA/Privacy Act requests, only one (1.7 percent) of
the 60 FOIA/Privacy Act cases was found to have an untimely response. When the sample
results are projected to our estimated population of 2,861 cases closed during the period
October 1, 2010, through September 30, 2011, the results indicate that approximately
48 FOIA/Privacy Act requests were not processed timely. The projection is based on a
95 percent confidence level. We expect the number of requestors who may have received
untimely responses to range from one to 256 cases.



                                                                                                         Page 8
                                 Fiscal Year 2012 Statutory Review of
                             Compliance With the Freedom of Information Act



                                                                                       Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS improperly withheld
information requested by taxpayers in writing based on the FOIA1 exemption (b)(3), in
conjunction with I.R.C. § 6103,2 and/or FOIA exemption (b)(7) or by replying that responsive
records were not available. To accomplish this objective, we:
I.      Identified any changes to the policies, operating procedures, systems, documents/files,
        risks, laws, and regulations related to the receipt, disposition, and resolution or denials of
        requests for information under the FOIA that have occurred since last year’s review.
II.     Identified the management controls that are in place to ensure the timely and proper
        receipt, disposition, and resolution or denials of requests for information under the FOIA.
III.    Determined whether the IRS properly adhered to statutory FOIA and Privacy Act of 1974
        (Privacy Act)3 requirements, as well as procedural requirements.
        A. Obtained an extract from the AFOIA System and the E-DIMS for the period
           October 1, 2010, through September 30, 2011, and identified an estimated
           2,861 FOIA/Privacy Act cases closed as denied or partially denied based on FOIA
           exemption (b)(3), in conjunction with I.R.C. § 6103, or on FOIA exemption (b)(7), or
           where the IRS replied responsive records did not exist. We validated the data extract
           by performing specialized queries.
        B. Designed an attribute sample based on a confidence level of 90 percent, an
           expected error rate of 5.5 percent for FOIA/Privacy Act cases, and 5.89 percent
           for I.R.C. § 6103 cases with an estimated precision of ± 5 percent. Based on these
           parameters, a statistically valid sample size was 60 cases. This sampling
           methodology was chosen so we could project the number of cases with improper
           withholdings to the universe of cases that were partially or fully denied based on
           FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA
           exemption (b)(7), or for which requestors were told records were not available. We
           increased the attribute sample size from 60 cases to 176 cases to account for the
           possibility that some case files would be unavailable or might not meet our objective
           criteria.


1
  5 U.S.C.A. § 552 (2010).
2
  I.R.C. § 6103 (2009).
3
  5 U.S.C. § 552a (2010).
                                                                                               Page 9
                            Fiscal Year 2012 Statutory Review of
                        Compliance With the Freedom of Information Act



      C. Reviewed the 60 sampled cases and determined whether the decision to withhold
         information was appropriate, the record search was adequate, and the determination
         was made in a timely manner.
      D. Projected the number of cases where information was withheld from the requester in
         the range of 12 to 330 (0.41 percent to 11.53 percent) for FOIA/Privacy Act cases
         that were partially or fully denied based on FOIA exemption (b)(3), in conjunction
         with I.R.C. § 6103, and/or FOIA exemption (b)(7), or for which requestors were told
         records were not available. The projection was made using the Exact Binomial
         method for attribute sampling, with a 95 percent confidence level and an actual error
         rate of 3.33 percent. The accuracy of our projection was reviewed and confirmed by
         our contracted statistician.
      E. Projected the number of untimely determinations in the range of one to 256
         (0.04 percent to 8.94 percent) for FOIA/Privacy Act cases that were partially or fully
         denied based on FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or
         FOIA exemption (b)(7), or for which requestors were told records were not available.
         The projection was made using the Exact Binomial method for attribute sampling,
         with a 95 percent confidence level and an actual error rate of 1.67 percent. The
         accuracy of our projection was reviewed and confirmed by our contracted statistician.
      F. Discussed all exception cases with disclosure personnel.
      G. Reviewed the U.S. Department of the Treasury FOIA Annual Report to the Attorney
         General for FY 2011 showing various statistics for FOIA/Privacy Act cases,
         including appeals and closures. This information was not independently verified
         because the accuracy of these statistics did not affect the accomplishment of our audit
         objective.
IV.   Determined whether the IRS Headquarters Disclosure Office is adhering to legal
      requirements when denying written requests received from taxpayers under
      I.R.C. § 6103.
      A. From the national extract obtained for Step III.A., identified 2,232 I.R.C. §§ 6103 (c)
         and (e) requests that were denied, partially denied, or had no disposition code.
      B. Designed an attribute sample based on a confidence level of 90 percent, an expected
         error rate of 5.89 percent, and an estimated precision of ± 5 percent. Based on these
         parameters, the size of the statistically valid sample was 60 cases. This sampling
         methodology was chosen because it would allow us to project the number of cases
         with improper withholdings to the universe of closed I.R.C. §§ 6103 (c) and (e)
         requests for which information was partially or fully denied or for which the IRS
         replied that responsive records did not exist.


                                                                                         Page 10
                             Fiscal Year 2012 Statutory Review of
                         Compliance With the Freedom of Information Act



       C. Selected a random sample of 400 of the 2,232 I.R.C. §§ 6103 (c) and (e) closed cases.
          We selected a larger sample size to account for the possibility that some case files
          would be unavailable and/or the cases requested from IRS would not meet our
          objective criteria. We reviewed the cases received to identify the necessary 60 cases
          for our sample that included instances in which information was partially or fully
          denied or in which the IRS replied that responsive records did not exist.
       D. Reviewed the 60 cases identified and determined whether the decision to withhold the
          information based on I.R.C. § 6103 was appropriate.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, operating procedures,
systems, laws, and regulations related to the receipt, disposition, and resolution or denials of
requests for information under the FOIA to evaluate whether the IRS improperly withheld
information requested by taxpayers in writing. We evaluated these controls by reviewing source
materials, interviewing management, and reviewing a sample of closed FOIA/Privacy Act and
I.R.C. § 6103 cases.




                                                                                         Page 11
                           Fiscal Year 2012 Statutory Review of
                       Compliance With the Freedom of Information Act



                                                                            Appendix II

                Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Director
Tina M. Parmer, Audit Manager
Nancy Van Houten, Lead Auditor
Todd M. Anderson, Senior Auditor
Margaret F. Filippelli, Senior Auditor
Carol C. Gerkens, Senior Auditor
Gail C. Schuljan, Senior Auditor
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                    Page 12
                            Fiscal Year 2012 Statutory Review of
                        Compliance With the Freedom of Information Act



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Governmental Liaison and Disclosure, Privacy, Governmental Liaison and Disclosure
OS:P:GL
Director, Headquarters Disclosure, Privacy, Governmental Liaison and Disclosure OS:P:GL:D
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Deputy Commissioner, Operations Support OS




                                                                                     Page 13
                                   Fiscal Year 2012 Statutory Review of
                               Compliance With the Freedom of Information Act



                                                                                    Appendix IV

                                   Outcome Measures

This appendix presents detailed information on the measurable impact that the results of our
audit will have on tax administration. These benefits will be incorporated into our Semiannual
Report to Congress.

Type and Value of Outcome Measure:
     Taxpayer Rights and Entitlements – Potential; 95 responses to FOIA1/Privacy Act2 requests
      for which information may have been improperly withheld during the 12-month period
      October 1, 2010, through September 30, 2011 (see page 5).

Methodology Used to Measure the Reported Benefit:
     We reviewed a statistically valid sample of 60 cases from a population 2,861 FOIA/Privacy
      Act requests closed nationally during the period October 1, 2010, through September 30,
      2011, as either a:
      1) Full or partial denial with either FOIA exemption (b)(3), in conjunction with
         I.R.C. § 6103, and/or FOIA exemption (b)(7) cited as one of the reasons for withholding
         information.
      2) Request for which the IRS replied that responsive records did not exist.
     We identified two cases where IRS Disclosure personnel improperly withheld information
      requested by the taxpayer.
Based on our sample error rate of 3.33 percent (2/60) and a confidence level of 90 percent, we
estimated the number of taxpayers improperly denied information to be 95 [2,861 x
3.33 percent], with a range of 12 to 330. We arrived at the estimate by multiplying the number
of requests closed as either condition 1) or 2) listed in the prior paragraph by the percentage of
improperly denied responses identified in our sample. The projection was made using the Exact
Binomial method for attribute sampling, with a confidence level of 95 percent and an actual error
rate of 3.33 percent. As a result, the actual precision factors were 0.41 percent and
11.53 percent.




1
    5 U.S.C.A. § 552 (2010).
2
    5 U.S.C. § 552a (2000).
                                                                                          Page 14
                             Fiscal Year 2012 Statutory Review of
                         Compliance With the Freedom of Information Act




Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 48 responses to FOIA/Privacy Act requests
    may not have been processed within the required statutory time periods during the 12-month
    period October 1, 2010, through September 30, 2011 (see page 7).

Methodology Used to Measure the Reported Benefit:
   We reviewed a statistically valid sample of 60 cases from a population 2,861 FOIA/Privacy
    Act requests closed nationally during the period October 1, 2010, through September 30,
    2011, as either a:
    1) Full or partial denial with either FOIA exemption (b)(3), in conjunction with
       I.R.C. § 6103, and/or FOIA exemption (b)(7) cited as one of the reasons for withholding
       information.
    2) Request for which the IRS replied that responsive records did not exist.
   We identified one case where the IRS’s response was issued after the statutory due date.
Based on our sample error rate of 1.67 percent (1/60) and a confidence level of 90 percent, we
calculated the number of untimely responses to be 48 [2,861 x 1.67 percent], with a range of one
to 256. We arrived at the estimate by multiplying the number of requests closed as either
condition 1) or 2) listed in the prior paragraph by the percentage of untimely responses identified
in our sample. The projection was made using the Exact Binomial method for attribute
sampling, with a confidence level of 95 percent and an actual error rate of 1.67 percent. As a
result, the actual precision factors were 0.04 percent and 8.94 percent.




                                                                                           Page 15
                           Fiscal Year 2012 Statutory Review of
                       Compliance With the Freedom of Information Act



                                                                            Appendix V

     Prior Treasury Inspector General for Tax
 Administration Freedom of Information Act Reports

TIGTA, Ref. No. 2000-10-116, Taxpayers Should Be Provided Timely Service When Appealing
Denied Requests Under the Freedom of Information Act (Aug. 2000).
TIGTA, Ref. No. 2001-10-112, The Internal Revenue Service Should Continue Taking Action to
Improve Compliance With the Freedom of Information Act and Related Procedures (Jul. 2001).
TIGTA, Ref. No. 2002-10-093, Actions Should Continue to Be Taken to Improve Compliance
With the Freedom of Information Act and Related Procedures (May 2002).
TIGTA, Ref. No. 2003-10-164, Opportunity for Improvement Exists for Compliance With the
Freedom of Information Act and Related Procedures (Aug. 2003).
TIGTA, Ref. No. 2004-40-064, Improvements Are Needed to Ensure Compliance With the
Freedom of Information Act (Mar. 2004).
TIGTA, Ref. No. 2005-10-089, Some Improvements Have Been Made to Better Comply With
Freedom of Information Act Requirements (May 2005).
TIGTA, Ref. No. 2006-10-129, Compliance With Freedom of Information Act Requirements Has
Increased (Aug. 2006).
TIGTA, Ref. No. 2007-10-133, The Office of Disclosure Can Improve Compliance With the
Freedom of Information Act Requirements (Aug. 2007).
TIGTA, Ref. No. 2008-30-164, The Office of Disclosure Continued to Improve Compliance With
the Freedom of Information Act Requirements (Aug. 2008).
TIGTA, Ref. No. 2009-30-115, The Office of Disclosure Continues to Improve Upon Its
Responses to Taxpayers’ Requests Under the Freedom of Information Act (Sept. 2009).
TIGTA, Ref. No. 2010-30-090, The Office of Disclosure Continues to Improve Compliance With
the Freedom of Information Act Requirements (Aug. 2010).
TIGTA, Ref. No. 2011-30-093, The Office of Disclosure Continues to Improve Compliance With
the Freedom of Information Act Requirements (Sept. 2011).




                                                                                      Page 16
